IN THE SUPREME COURT OF THE UNITED STATES
October Term 2020
CASE NO. ________________________
____________________________

Eleventh Circuit Court of Appeals No. 19-10656
Southern District of Florida No. 18-cr-80153-WPD

DELSON MARC,
Petitioner,
vs.
UNITED STATES OF AMERICA,
Respondent.
PETITION FOR WRIT OF CERTIORARI
TO THE UNITED STATES COURT OF APPEALS
FOR THE ELEVENTH CIRCUIT

With Incorporated Appendix

Sheryl J. Lowenthal

CJA Appellate Counsel for Mr. Marc
9130 S Dadeland Blvd. Suite 1511
Miami, Florida 33156-7851
Phone: 305-670-3360
Fax: 305-670-1314
Florida Bar No. 163475

North Florida Office: 221 East Government Street Pensacola FL 32502 Ph: 850-912-6710

Questions Presented
In Rehaif v. United States, 139 S.Ct. 2191, 2194 (2019), this Court held that
18 U.S.C. Sections 922(g) and 924(a)(2) require that the government prove “the
defendant knew he possessed a firearm and also that he knew he had the relevant
status when he possessed it.”

One “relevant status” is that the defendant have a

prior conviction for “a crime punishable by imprisonment for a term exceeding one
year.” 18 U.S.C. § 922(g)(1). There is a direct split between the Circuits in cases
that were tried to a jury and were pending on direct appeal when this Court decided
Rehaif. The two questions presented in this Petition are:
The Circuits are split. Does this opinion directly conflict with
United States v. Gary, 4th Cir. 2014, oral argument before this Court
on April 20, 2021, in determining whether in light of Rehaif, a
defendant’s
conviction may be affirmed
even though the
indictment did not charge, and the government did not prove, that
the defendant knew his felon status, which is an essential element
of 18 U.S.C. § 922(g)?
Additionally, will the forthcoming resolution by this Court of the
matter of Gregory Greer v. United States, Case No., 19-8709, oral
argument on April 20, 2021, will be applicable to and dispositive of
the questions raised in Delson Marc’s case and in this Petition.

i

Table of Contents and Citations
QUESTIONS PRESENTED

i

PETITION FOR WRIT OF CERTIORARI

1

PARTIES TO THE PROCEEDINGS

1

OPINION BELOW

1

STATEMENT OF JURISDICTION

2

CONSTITUTIONAL AND STATUTORY PROVISIONS
Fifth Amendment

3

Sixth Amendment

3

Statutes
Title 18, Section 922(g)

4

The First Step Act, Title IV, Section 401

4

STATEMENT OF THE CASE AND FACTS
Course of Proceedings and Disposition
Below With Relevant Facts

5

The Plea Agreement

7

The Factual Proffer

8

Two Motions to Withdraw the Plea Agreement

12

Hearing on Second Motion to Withdraw Plea
And Sentencing

16

ii

REASONS FOR GRANTING THE WRIT
The Circuits are split. This opinion directly conflicts with United
States v. Gary, 4th Cir. 2014, oral argument before this Court on
April 20, 2021, in determining whether in light of Rehaif, a
defendant’s
conviction may be affirmed
even though the
indictment did not charge, and the government did not prove, that
the defendant knew his felon status, which is an essential element
of 18 U.S.C. § 922(g); and ….
Additionally, forthcoming resolution by this Court of the matter of
Gregory Greer v. United States, Case No., 19-8709, oral argument
on April 20, 2021, will be applicable to and dispositive of Delson
Marc’s case as presented in this Petition.
19
CONCLUSION

32

APPENDIX TO THE PETITION

34

United States v. Delson Marc, Appeal No. 19-10656
Eleventh Circuit, March 25, 2020
Final Judgment in a Criminal Case
Southern District of Florida No. 9:18-cr-80153-WPD
Docket No. 167 Entered on February 11, 2019
Order of the Eleventh Circuit Court of Appeals
Denying Mr. Marc’s Timely-Filed
Petition for Rehearing Entered on January 5, 2021
The First Step Act, Title IV, Section 401
Text, content, and explanation by the
United States Sentencing Commission
February 2019

iii

TABLE OF CITATIONS
Cases:
The United States Supreme Court
Brady v. Maryland, 373 U.S. 83 (1963)

6

Class v. United States, 138 S.Ct. 798 (2018)

23

Elonis v. United States, 135 S.Ct. 2001 (2015)

26

Giglio v. United States, 405 U.S. 150 (1972)

6

Greer v United States,
U.S. Supreme Court No. 19-8709, Oral Arg. 20 Apr. 2021
798 F.App’x. 483 (11th Cir. 2020)
Hamling v. United States, 418 U.S. 87 (1974)

i, 21
30, 31

Henderson v. United States, 568 U.S. 266 (2013)

28

McCarthy v. United States, 394 U.S. 459 (1969)

31

Reed v. Ross, 468 U.S. 1 (1984)

28

Rehaif v. United States, 139 S.Ct. 2191 (2019)

i, 5, 18, 19, 21, 24, 25,
27, 28, 29, 32, 33

Russell v. United States, 369 U.S. 749 (1962)

28, 29, 30

Stirone v. United States, 361 U.S. 212 (1960)

20, 28, 29

United States v. Cotton, 535 U.S. 625 (2002)

27

United States v. Cruikshank, 92 U.S. 542 (1875)

20

iv

United States v. Gary,
U.S. Supreme Court No. 20-444, Oral Arg. 20 Apr. 2021
963 F.3d 420 (4th Cir. 2020)

i, 21, 22, 23

United States v. Olano, 507 U.S. 725 (1993)

28

The United States Courts of Appeals
Adams v. Murphy, 653 F.2d 224 (5th Cir. 1981)

23

United States v. Brown, 752 F.3d 1344 (1th Cir. 2014)

23

United States v. Gayle, 967 F.2d 483 (11th Cir. 1992) (en banc)

20

United States v. Inunza, 638 F.3d 1006 (9th Cir. 2011)

30

United States .v Izurieta, 710 F.3d 1176 (11th Cir. 2013)

27

United States v. Jackson, 120 F.3d 1226 (11th Cir. 1997)

28

United States v. Lang, 732 F.3d 1246 (11th Cir. 2013)

29

United States v. Macintosh, 704 F.3d 894 (11th Cir. 2013)

27

United States v. Delson Marc, (11th Cir. 2020), No. 19-10656, 25 Mar. 2020

1

United States v. Martinez, 800 F.3d 1293 (11th Cir. 2015)

26

United States v. Peter, 310 F.3d 709 (11th Cir. 2002)

27

United States v. Radowitz, 507 F.3d 1081 (3d Cir. 1974)

30

United States v. St. Hubert, 909 F.3d 335 (11th Cir. 2018)

27

United States v. Sperraza, 804 F.3d 335 (11th Cir. 2018)

27

v

Other Authorities:
The United States Constitution
Fifth Amendment

i, 3

Sixth Amendment

3, 17

The United States Code
Title 18, Section 2

1

Title 18, Section 875

26

Title 18, Section 922(g)

i, 4, 5, 18, 29, 20, 21, 23, 29

Title 18, Section 924(a)(2)

i, 20, 26, 27, 29

Title 18, Section 924(c)

5

Title 18, Section 3231

2

Title 21, Section 841(a)(1)

1

Title 21, Section 841(b)(1)(A)

14

Title 21, Section 851

14

Title 21, Section 3742(a)

2

Title 28, Section 1291

2

vi

Rules of the Supreme Court
Rule 10(a)

3

Rule 13.1

2

Federal Rules of Appellate Procedure
Rule 4(b)

2

Federal Rules of Criminal Procedure
Rule 11

21, 31

The First Step Act
Title IV Section 401

4

vii

PETITION FOR WRIT OF CERTIORARI
PARTIES TO THE PROCEEDINGS
The Petitioner Delson Marc and one codefendant, Balmy Lincoln Joseph,
were defendants in a criminal prosecution in the Southern District of Florida.
Petitioner Delson Marc was the Appellant in the Eleventh Circuit Court of
Appeals. The Respondent is the prosecution, the United States of America.
OPINION BELOW
This petition arises from the non-published decision of the Eleventh Circuit
Court of Appeals entered on March 25, 2020 in United States v. Delson Marc,
Appeal No. 19-10656, affirming and dismissing in part the appeal taken from
Marc’s conviction and sentence in the Southern District of Florida in Case No.
9:18-cr-80153-WPD.
Delson Marc appealed his conviction after pleading guilty to (1) conspiracy
to possess with intent to distribute heroin in violation of 21 U.S.C. Sections
841(a)(1) and 846 (Count 4); (2) possession with intent to distribute heroin, in
violation of 21 U.S.C. Section 841(a)(1) and 18 U.S.C. Section 2 (Count 5); and
(3) felon in possession of a firearm in violation of 18 U.S.C. Section 922(g)(1)
(Count 8). The Eleventh Circuit found that “[n]o reversible error has been shown;
we affirm but dismiss this appeal in part.”
1

Following the entry of his guilty plea, which included an appeal waiver, Mr.
Marc twice attempted, unsuccessfully, to vacate the plea.

Mr. Marc was

adjudicated guilty and sentenced on February 11, 2019 as follows: 240 months as
to Counts 4 and 5, and 120 months as to Count 8, all to run concurrently. Mr.
Marc is presently in the custody of the State of Florida. According to the United
States Bureau of Prisons website, his presumptive release date is in 2035.
Copies of the Eleventh Circuit opinion, the judgment of the district court,
and the Eleventh Circuit order denying the timely-filed petition for rehearing, all
are in the Appendix that is attached at the end of this Petition.
STATEMENT OF JURISDICTION
Final judgment against Delson Marc was entered on February 11, 2019. The
district court had jurisdiction to enter the judgment pursuant to 18 U.S.C. §3231.
A notice of appeal was timely filed pursuant to FRAP 4(b). The Eleventh Circuit
had jurisdiction over the appeal under 28 U.S.C. §1291, and authority to review
Marc’s challenge to his sentence under 18 U.S.C. §3742(a).
The Eleventh Circuit’s non-published opinion was entered on March 25,
2020. Mr. Marc timely filed a petition for rehearing that was denied by order of
January 5, 2021. This petition is timely filed pursuant to Supreme Court Rule 13.1

2

in conjunction with this Court’s Order of March 19, 2020, extending the
time to file a Petition for Writ of Certiorari from 90 days to 150 days due to the
Covid19 pandemic emergency.

The jurisdiction of this Court is invoked under 28

U.S.C. §1254(1). Moreover, this Court has subject matter jurisdiction pursuant to
Supreme Court Rule 10(a).
CONSTITUTIONAL and STATUTORY PROVISIONS

The United States Constitution
Fifth Amendment
No person shall be held to answer for a capital, or otherwise
infamous crime, unless on a presentment or indictment of a Grand
Jury … nor shall any person be subject for the same offence to be
twice put in jeopardy of life or limb; nor shall be compelled in any
criminal case to be a witness against himself, nor be deprived of
life, liberty, or property, without due process of law…
Sixth Amendment
In all criminal prosecutions, the accused shall enjoy the right
to a speedy and public trial, by an impartial jury of the state and
district wherein the crime shall have been committed, which
district shall have been previously ascertained by law, and to be
informed of the nature and cause of the accusation; to be
confronted with the witnesses against him; to have compulsory
process for obtaining witnesses in his favor and to have assistance
of counsel for his defense.
3

Title 18 United States Code Section 922(g)
It shall be unlawful for any person – (1) who has been
convicted in any court of a crime punishable by imprisonment for a
term exceeding one year…to ship or transport in interstate or
foreign commerce, or possess in or affecting commerce any
firearm or ammunition; or to receive any firearm or ammunition
which has been shipped or transported in interstate or foreign
commerce.
The First Step Act, Title IV, Section 401
Due to its length, the complete text, content, and explanation of Section 401,
as set forth by the United States Sentencing Commission in February, 2019, is
attached in the Appendix at the end of this Petition,

4

STATEMENT OF THE CASE
Course of Proceedings and Disposition Below
With Relevant Facts
The record shows that Delson Marc entered a guilty plea based upon advice
from retained counsel.

About one month after Marc entered his guilty plea,

Congress amended certain sentencing provisions in the First Step Act, reducing
the minimum mandatory sentence for two of three offenses to which Marc
pleaded guilty, to one-half of the sentence in effect on the date of Marc’s plea.
The minimum mandatory was reduced from twenty years to ten which would
have significantly affected plea negotiations and the sentence imposed.
On June 21, 2019, this Court decided Rehaif v. United States, 139 S.Ct. 2191
(2019), holding that in prosecutions under 18 U.S.C. §§ 922(g) and 924(c) the
government must prove both that the defendant knew he possessed a firearm and
also that he knew that he belonged to the relevant category of persons barred from
possessing a firearm. These required elements were omitted from the indictment,
and proof of each essential element was lacking in the plea agreement and the
factual proffer.
On July 23, 2018, in a criminal complaint, Delson Marc and Balmy Joseph
first appeared in the Southern District of Florida, West Palm Beach Division. Both
were detained. An eight-count indictment was returned alleging drug and firearm
5

offenses.

Marc was charged in six counts. Three months later an eleven-count

superseding indictment with a forfeiture claim was returned in which Marc was
charged in nine counts. Marc moved for a separate trial. His motion was denied.
Marc filed motions to suppress the firearm, bullets, and heroin; to compel Giglio
and impeachment material; and for early release of Brady material. All motions
were denied.
On November 5, 2019, trial was set to begin, and Marc pleaded guilty.
Marc was found guilty as to Counts 4, 5, and 8 of the superseding indictment:
conspiracy to possess heroin with intent to distribute, possession of heroin with
intent to distribute, and possession of a firearm by a convicted felon. A written
plea agreement and factual proffer were filed.
Before sentencing Marc moved to withdraw his plea. The court denied the
motion, discharged retained counsel, and appointed new counsel. Marc filed a
motion for return of fees paid to retained counsel. That was denied.

A second

motion to withdraw the guilty plea was filed. The second motion to withdraw was
entertained just before sentencing and was denied.
Marc was sentenced to prison for 240 months, 5 years supervised release,
and ordered to pay a $300.00 assessment. Final judgment was entered on February

6

11, 2019.

A notice of appeal was filed on February 18. Counsel moved to

withdraw. On February 27, 2019 undersigned was appointed for appeal.

The Plea Agreement
A seven-page plea agreement was filed on November 6, 2018. Marc agreed
to plead guilty to Counts 4, 5, and 8. The government agreed to dismiss the other
counts. The agreement provided in paragraph 4 on page 2 that the two drug
charges each had a mandatory minimum term of 20 years to life; and the
firearm violation in Count 8 had a 10-year maximum.
The parties agreed to jointly recommend a sentence of 240 months
incarceration (20 years). The government agreed to dismiss Count 9 which
carried a consecutive minimum mandatory five years.

Marc agreed to forfeiture

of a firearm, ammunition, and almost $27,000 in US currency, as well as other
property derived from the offenses.
Because the plea was entered on the day that trial was set to begin, there was
no acceptance of responsibility, and the agreement included an appeal waiver.

7

The Factual Proffer
There was a seven-page proffer of facts stating inter alia: In January 2018, a
West Palm Beach detective received information about a large-scale heroin
distributor. The CI described the person and gave a phone number. The individual
was in the trucking business in West Palm Beach on Benoist Farms Road, was
observed with 4-5 “bricked-up” ounces of heroin, and bragged about importing
substantial amounts of heroin. The CI described the person’s vehicles. A detective
attempted surveillance on Benoist Farms Road and noticed someone fitting the
description driving by slowly in a Nissan Altima, writing down the undercover
vehicle’s license plate. Surveillance was terminated.
Later that day detectives directed the CI to call and arrange a meeting.
Detectives watched a silver Nissan Altima head to the location where the CI would
meet with the individual. They listened as the man told the CI that he only made
“large plays;” he would not sell heroin for less than $300.00; and that “the dirt
road” meant the tractor-trailer yard on Benoist Farms Road. This person who
earlier had “counter-surveill[ed]” the undercover vehicle, was identified as Delson
Marc, known to local and federal law enforcement as a large-scale heroin dealer.
The next day the CI was instructed to purchase heroin for $300.00 from
Mr. Marc. The CI made a controlled call to Marc and said he was on his way
8

to the “dirt road.” The CI was equipped to video- and audio-record the transacttion. Mr. Marc gave the CI heroin capsules in exchange for $300.00, and said
they were potent. The CI gave the capsules to the detectives. The capsules tested
positive for heroin.
On February 7, 2018 law enforcement tried to introduce an undercover
officer to Delson Marc through the CI. The CI had arranged to purchase heroin for
$2,200.00, but Mr. Marc refused to exit his car to meet with a the undercover
agent. The informant handed the money to Marc. Marc drove away. The CI said
that Marc was nervous about meeting a stranger. The substance tested positive for
heroin.
On February 22, 2018, the CI told agents that Mr. Marc was going to come
by the CI’s residence. Officers watched Marc arrive, meet with the CI, give him
two heroin capsules, and tell the CI to test the quality and strength.

Marc left.

The CI gave the capsules to the agents. Marc returned with another capsule for the
CI to test. The CI said the second was better than the first. Marc left. The agents
took the capsule. It tested positive for heroin. They were unable to arrange any
further transactions with Marc.
In July 2018 Marc was spotted driving, followed by a tow truck. Detectives
made a traffic stop of the tow truck. When Marc saw that police cars had stopped
9

the truck he fled the scene at high speed.

Marc and two passengers including

Balmy Joseph abandoned the car and fled on foot.

On the ground next to the

abandoned vehicle officers found a purple Crown Royal bag containing heroin that
was packaged for distribution. Marc and Joseph were not caught. The other
passenger was captured by a K-9. The substance was positive for heroin.
There was an outstanding state warrant for Delson Marc for fleeing and
eluding. Detectives and U.S. Marshals searched for him. On July 12, 2018 they
stopped Marc in a car adjacent to Marc’s recreational vehicle located at Doerr’s
Trailers on Benoist Farms Road in West Palm Beach. Backup units arrived and
found Marc seated in the front passenger seat of a Nissan Maxima. The Maxima
tried to flee but was blocked. The driver and backseat passenger fled on foot with
a backpack.

Marc was taken into custody. He had over $2,000 cash and seven

cell phones in his possession.

On July 13th detectives obtained a search warrant

for Marc’s RV after a narcotics K-9 alerted on it. In the RV detectives found a bag
that contained a Springfield Armory, Model XD-40 caliber pistol, six rounds of
Barnes.40 caliber ammunition, other ammunition, and dozens of capsules
packaged for distribution.

The capsules testified positive for heroin.

Prior to Marc’s arrest detectives located his Cadillac Escalade parked in the
Luma Apartment Complex in West Palm Beach. Detectives showed photos of
10

Delson Marc and his associates to the leasing staff. One employee identified a
photograph of Balmy Joseph as the person who rented apartment no. 5304, but said
he used a different name. Joseph rented the apartment in 2017, using the date of
birth, social security number, and driver’s license number for someone identified
as W.D. W.D. was interviewed and said that he did not know Balmy Joseph and
did not give him permission to use his identity.
On July 18, 2018 officers executed a state search warrant at apartment 5304
and the detached garage.

They saw Balmy Joseph standing outside. As K-9

officers approached Joseph broke two cell phones. He denied living there. He said
he was a visitor. A key to apartment 5304 was found in his pocket.
The search warrant authorized a search of the residence and the detached
garage for evidence related to fraudulent use of personal information and fraud.
When they found narcotics the officers obtained narcotics search warrants for the
residence and the garage.

They found heroin, prescription medications, keys, a

remote garage door opener, cash, and a drug ledger. In the garage they found four
Forgiato tire rims. Officers listened to Marc’s telephone calls from jail, and his
DNA was found on various pieces of evidence.
The proffer also stated that Marc was a convicted felon as of July 2018, as
follows: March 2017 possession of codeine in Broward County Florida; January
11

2016, felon in possession of a firearm in Palm Beach County, Florida; and August
2008 fleeing or eluding in Palm Beach County. The firearm and ammunition
found in the search of the RV were determined to have been manufactured outside
Florida, and therefore had traveled in interstate commerce.
Two Motions to Withdraw the Plea Agreement
The plea was entered in November 2018. On January 4, 2019 Marc filed a
pro se motion to withdraw the plea alleging that although he was represented by
counsel, he asked to withdraw the plea because “he did not knowingly, voluntarily
and intelligently plead pursuant to the written agreement knowing all the facts and
circumstances to which he was pleading guilty to [sic].”

The motion further

alleged that counsel failed to make …
…full disclosure of the Plea Agreement or the cause and effects of the
Plea Agreement.
The Defendant is not an Attorney, nor is the
Defendant knowledgeable of the Federal Statutes … he was charged
with in the indictment…. the Defendant relied solely upon his
Attorney action and demands that he plead guilty.
The motion alleged that Marc was not told by counsel about the Federal
Sentencing Guidelines, or that he was waiving his right to appeal. Marc said he
did not realize that he would not receive a 3-point reduction for acceptance of responsibility. He did not even know what it meant, but subsequently learned that it
“… could have reduc[ed] his sentence dramatically; ” and that the government
12

included in paragraph 10 that the defendant agreed that he would not seek or
receive an acceptance-of-responsibility reduction, which is a highly-sought
benefit for defendants who plead guilty (emphasis in original):
Surely the Defendant would not give up such a benefit had the Attorney
explain[ed] to him exactly what he was given [sic] up and what
ACCEPTANCE OF REPONSIBILITY meant.
The motion alleged that the government further violated his constitutional
protections by waiving the right to appeal in paragraph 12.

On January 11,

2019 at a hearing on the pro se motion to withdraw the plea agreement the court
allowed Marc’s three retained attorneys to withdraw, and appointed CJA counsel.
A written order was entered denying the motion to withdraw the plea agreement
without prejudice, to be refiled by new CJA counsel, Attorney Barry Wax.
On February 4, 2019, a second motion to withdraw the plea of guilty was
filed by Barry Wax. The motion explained that Marc previously had a team of
three attorneys. In the plea agreement he agreed to plead guilty to three charges in
the Superseding Indictment (Counts 4, 5, and 8), and the Government agreed to
dismiss Counts 1, 2, 3, 6, and 9, charging other heroin and firearm offenses.
During the plea colloquy the court advised Marc that he was subject to a 20-year
minimum mandatory sentence for each of the three charges to which he was

13

pleading guilty because of Previous Conviction Information filed by the
government pursuant to 21 U.S.C. §851, for the prior conviction in Broward
County for codeine-possession, all of which was later rendered erroneous due to a
change in the law, favorable to the defense as to §851. In December 2018 the
United States Congress passed the First Step Act providing federal sentencing
reform that would apply to Delson Marc’s case. Title 21 U.S.C. Section
§841(b)(1)(A)(viii), was amended to preclude a §851 information unless the prior
conviction for a felony drug offense was a serious drug felony or serious violent
felony.
The Information for the Broward conviction for possession of codeine could
not support an 851 enhancement. Marc was no longer facing a 20-year minimum
mandatory jail term for Counts 4 and 5. Now he was facing a 10-year minimum
mandatory term for each count.

Marc relied on the advice of counsel and the

court when he pled guilty; but that advice was rendered inaccurate within about a
month after entering the plea.
The second motion to withdraw further alleged that Marc repeatedly was
advised by his team of attorneys that if he were found guilty, the lowest possible
sentence he could receive for Counts 4 and 5 was twenty years. Counsel presented

14

the plea agreement to Marc on the morning of trial and told him that if he pled
guilty the government would dismiss Count 9 (possession of a firearm in
furtherance of a drug trafficking crime), which carried a consecutive five-year
minimum mandatory term.
The motion alleged that Marc received more erroneous advice that his
advisory guidelines range was 262-327 months, greater than the 240 months which
induced Marc to reluctantly accept the plea in which he waived acceptance of
responsibility, the right to request a downward departure, and the right to appeal
the sentence, all of which he should have had.
The government filed a response in opposition arguing, inter alia, that
during the plea colloquy when the court reviewed the terms and provisions of the
plea agreement, Marc answered the court’s questions with responses indicating that
he wished to plead guilty and throw himself on the mercy of the court. The
government argued that Marc had close assistance of counsel, the plea was
knowing and voluntary, guilty pleas promote judicial economy, withdrawal of a
plea prejudices the government, and Marc’s admission of factual guilt all were
reasons to deny the motion to withdraw the plea.

15

Hearing on Second Motion to Withdraw Plea
& The Sentencing
On February 8, 2019 the court heard arguments on the second motion to
withdraw the plea, denied the motion, and proceeded with sentencing. Counsel
argued that the motion should be granted and the plea withdrawn because the First
Step Act changed the applicability of the §851 enhancement for Counts 4 and 5;
that although the plea colloquy was lengthy and extensive, Marc articulated his
desire to proceed to trial many times; that Marc was entitled to the benefit of at
least two points for acceptance of responsibility even if the plea occurred on the
day trial was to begin, and he never would have waived that if he understood what
it meant; and there was an obvious alteration made to plea agreement document
regarding the date on which the plea was signed by Mr. Marc.
Marc stated that his previous attorneys negotiated with the government
without his consent and without the consent of family members who paid
substantial attorneys’ fees; that the plea agreement was a conflict of interest and a
miscarriage of justice because it was negotiated unbeknownst to Marc and without
his permission; his family was misled to believe that there would be a trial; Marc
stated that he was never involved in a conspiracy with codefendant Balmy Joseph,
and the court should investigate the grand jury because there was no testimony
about an alleged conspiracy.
16

The court ruled that lawyers do not need family consent to participate in plea
negotiations and that the court has nothing to do with attorney’s fees. The court
said that it discharged the previous lawyers due to a breakdown of communication
between counsel and Mr. Marc.

The court said that the evidence in Balmy

Joseph’s trial, and also in Marc’s proffer, was sufficient to support a conspiracy
conviction, and ruled that the plea was voluntary:
… I’ve read the transcript. And changing your mind later on for whatever
reason isn’t a valid reason, a fair and just reason to withdraw the plea, and I
find that the motion to withdraw the plea is denied and I’ll enter an order to
that effect.
With that ruling, sentencing commenced.

The court overruled defense

objection to an enhancement for fleeing and eluding.

The court said that it

watched the video and Marc was speeding away so the police had to stop their
pursuit. Defense counsel argued that it was for an offense other than that charged
in this case, but the court said that it heard the evidence in Balmy Joseph’s trial.
The government requested the 240 months that was agreed in the plea
agreement. Defense counsel also recommended 20 years.
The court overruled the objection to the enhancement for fleeing and
eluding. Offense level 36 with criminal history category IV was an advisory range
of 262 to 327 months; and that whether or not it overruled the objection to fleeing
and eluding “… the court would have imposed the same sentence, and that is . . .
17

[to] honor the plea agreement and impose a 240-month sentence.” The court also
said:
…had this been a trial, had the government not … recommended a 20-year
sentence, and had the trial turned out the similar type of evidence as I heard
in Balmy Joseph’s trial, then I very well may have gone above the guidelines and imposed a life sentence in this case.
Sentence was imposed: 240 months, five years supervised release, a $300.00
assessment, and special conditions of supervised release.

Defense counsel

objected to the denial of the second motion to withdraw guilty plea; adopted all
arguments made in support of the motion; and objected to the denial of the
enhancement for reckless endangerment.
On appeal, the Eleventh Circuit affirmed as to all issues raised, including
error in denying the motion to withdraw the guilty plea based upon changes in the
law one month after the plea was entered; that the plea was based on erroneous
information because it was founded on insufficient proof of the firearm offense
based on this Court’s decision in Rehaif; and that the indictment failed to allege an
essential element of Section 922(g).

18

REASONS FOR GRANTING THE WRIT
The Circuits are split. This opinion directly conflicts with United
States v. Gary, 4th Cir. 2014, oral argument before this Court on
April 20, 2021, in determining whether in light of Rehaif, a
defendant’s
conviction may be affirmed
even though the
indictment did not charge, and the government did not prove, that
the defendant knew his felon status, which is an essential element
of 18 U.S.C. § 922(g).
Additionally, forthcoming resolution by this Court of the matter of
Gregory Greer v. United States, Case No., 19-8709, oral argument
on April 20, 2021, will be applicable to and dispositive of Delson
Marc’s case as presented in this Petition.
Based upon Rehaif v. United States, Marc’s plea was founded upon a
defective and deficient indictment that failed to charge every essential element of
the firearm offense. Title 18, U.S.C. §922(g) standing alone, fails to charge a
federal crime. Based upon Rehaif the 922(g) charge should be dismissed. A
conviction on that charge may not stand due to lack of jurisdiction.
Regardless of the entry of a guilty plea, regardless of an appeal waiver in the
plea agreement, regardless of Eleventh Circuit precedent for the proposition that a
defendant may waive any non-jurisdictional defect, lack of jurisdiction is a matter
that cannot be waived, and that may be raised at any time.
Count 8 of the indictment alleged that on or about July 12, in Palm Beach
County, Florida, Delson Marc having been previously convicted of a crime punish19

able by imprisonment for a term exceeding one year, did knowingly possess a
firearm and ammunition in and affecting interstate and foreign commerce, in violation of Title 18, United States Code, Section 922(g)(1).

Count 8 fails to also

mention Section 924(a)(2).
A criminal conviction will not be upheld if the indictment upon which it is
based does not set forth the essential elements of the offense. United States v.
Gayle, 967 F.2d 483, 485 (11th Cir. 1992) (en banc).

This rule serves two

purposes. First it informs the defendant of the nature and cause of the accusation
as required by the Sixth Amendment of the Constitution.

Id.

That notice

furnishes the accused with such a description of the charge against him that will
enable him to prepare and present a defense and avail himself of the protections
against double jeopardy. United States v. Cruikshank, 92 U.S. 542, 558 (1875).
The rule also fulfills the Fifth Amendment’s indictment requirement ensuring that a grand jury will return an indictment only when it finds probable cause to
support all of the necessary elements of the crime. Gayle, 967 F.2d 485. The purpose of that requirement is to limit a defendant’s jeopardy to offenses charged by a
group of fellow citizens acting independently of either the prosecutor or the judge.
Stirone v. United States, 361 U.S. 212, 218 (1960).

20

The decision in Delson Marc’s case directly conflicts with United States v.
Gary, 963 F.3d 420 (4th Cir. 2020), this Court’s Case No. No.20-444, oral
argument April 20, 2021, and likely also will be governed by the outcome of
Gregory Greer v. United States. that also presented oral argument on April 20th.
Michael Gary pleaded guilty to two counts under Section 922(g)(1). In his
Rule 11 hearing Gary admitted that he had (1) previously been convicted of a
crime punishable by imprisonment for more than a year, that he (2) possessed a
firearm, and (3) that the firearm had traveled in interstate or foreign commerce.
Gary was never advised, nor did he admit what Rehaif now requires: that he
“knew he had the relevant status” as a convicted felon when he possessed the guns.
Although Gary did not raise the issue in the district court, Fourth Circuit Chief
Justice Gregory reversed Gary’s conviction, finding that a Rehaif violation is
structural error, which per se violates defendant’s substantial rights, and satisfies
the difficult-to-meet plain error standard. As a general rule, if a defendant shows
(1) error that was (2) plain and (3) affected his substantial rights, an appellate court
may exercise its discretion to correct error that seriously affects the fairness,
integrity or public reputation of judicial proceedings.
In Gary, the Fourth Circuit took a different approach, focusing on the
question of whether acceptance of a guilty plea without informing the defendant of
21

every element of the offense, was constitutional error rendering the plea invalid.
Acknowledging that there was plain error, the government nonetheless denied that
it affected Gary’s substantial rights, because, the government argued, there was
ample evidence (including serving two years in jail) proving that Gary knew that
he was a convicted felon.
The Fourth Circuit easily rejected that argument, finding that the district
court’s actions fell into the category of “structural error” which must be corrected
regardless of any effect on the outcome, and regardless of whether objections were
made and preserved. Gary presents three separate justifications for that holding:
(1) the error violated Gary’s right to make a fundamental choice regarding his own
defense in violation of his Sixth Amendment autonomy interest; (2) deprivation of
Gary’s autonomy interest under the Fifth Amendment due process clause has
consequences that “are necessarily unquantifiable and indeterminate”; and (3)
“fundamental unfairness results when a defendant is convicted of a crime based on
a constitutionally invalid guilty plea.” Having made those findings the Fourth
Circuit exercised its discretion to vacate Gary’s convictions, stating that it
“…cannot imagine a circumstance where, faced with such constitutional infirmity
and deprivation of rights as presented in this case, we would not exercise our
discretion to recognize error and grant relief.”
22

While the government concedes that the mens rea element was missing from
Marc’s indictment, unlike the Fourth Circuit in Gary, the Eleventh Circuit failed
to explain how the rest of the indictment satisfies the Sixth Amendment
requirement to provide Marc with “knowledge” of his convicted status, one
element of 18 U.S.C. §922(g)(1).
The Eleventh Circuit relied on United States v. Brown, 752 F.3d 1344, 1354
(11th Cir. 2014), which is inapplicable. Unlike Brown, the government already
acknowledged that Marc’s indictment failed to provide notice of the “statusknowledge” requirement. In Brown, not only did the indictment state the facts of
the offense, but also recited all statutory elements.
In Class v. United States, 138 S.Ct. 798 (2018), this Court made clear that an
appeal waiver, even to the validity of the conviction, cannot bar a claim that the
defendant pleaded guilty to a non-offense. This is the established law of the
Eleventh Circuit going back to the Old Fifth Circuit well before Class. See Adams
v. Murphy, 653 F.2d 224, 225 (5th Cir. 1981) (“Nowhere in this country can any
man be condemned for a nonexistent crime.”)
In Rehaif, this Court held that under Section 922(g) nine categories of
persons, felons being the first, are prohibited from possessing a firearm or
ammunition by virtue of their status. While 922(g)(1) prohibits felons from pos23

sessing a firearm that provision does not actually criminalize the conduct; that is
done by 18 U.S.C. Section 924(a)(2), which provides that whoever knowingly
violates 922(g) shall be imprisoned not more than 10 years. Now, pursuant to
Rehaif, a valid prosecution depends on both 922(g) and 924(a)(2).

The crucial

role of 924(a)(2) has been overlooked here.
Rehaif addressed whether in a prosecution under both 922(g) and 924(a)(2),
the government must prove that a defendant knows of his status as a person barred
from possessing a firearm, 139 S.Ct. at 2195, and answered affirmatively holding
that “knowingly” in 924(a)(2) applies both to the defendant’s conduct and to his
status. To convict a defendant, therefore, the government must show that the
defendant knew that he possessed a firearm and that he had the relevant status
when he possessed it. Rehaif at 2194 and 2220.
Rehaif relied on the long-standing presumption traceable to common law
that Congress intends to require a defendant to possess a culpable mental state as to
every statutory element that criminalizes otherwise innocent conduct. Id. at 2195.
Rather than find a convincing reason to depart from the ordinary presumption in
favor of scienter, this Court found that the statutory test supported the presumption.
Ibid.

24

Rehaif emphasizes that the term “knowingly” in 924(a)(2) modifies the verb
“violates” and its direct object 922(g). Ibid.

This Court found no reason to

interpret “knowingly” as applying to the second element (possession) but not to the
first (status); and to the contrary, found that that by specifying that a defendant
may be convicted only if he “knowingly violates” 922(g), Congress intended to
require the government to establish that the defendant knew that he violated the
material elements of 922(g). Id at 2196.
Marc’s indictment alleged that having previously been convicted of a felony,
he did “knowingly possess a firearm in and affecting foreign commerce, in
violation of 18 U.S.C. 922(g)(1).”

That allegation does not state a federal

offense. The grand jury alleged that Marc was a felon, but failed to allege that he
knew that he was a felon. Rehaif held that such knowledge is an essential element.
Next, the indictment charged a violation of 922(g)(1) but did not mention
924(a)(2). Rehaif is clear that 922(g) is not a freestanding offense. A valid prosecution depends upon both 922(g) which prohibits certain conduct by certain
persons, and also 924(a)(2) which criminalizes the knowing violation of that
prohibition.

The grand jury failed to charge an essential element of the offense,

specifically knowledge of his status.

The grand jury failed to cite the

indispensable statutory requirement of mens rea, criminalizing certain conduct.
25

No other allegations in the indictment may cure these fatal deficiencies.
The effect of the insufficiency of the indictment is explained in United
States v. Martinez. 800 F.3d 1293, 1294 (11th Cir. 2015), where the grand jury
charged the defendant with knowingly transmitting an interstate threat in violation
of 18 USC 875(c). Id at 1294. In Elonis v. United States, 135 S.Ct. 2001 (2015),
this Court held that Section 875(c) requires proof of the defendant’s subjective
intent, abrogating precedent to the contrary. In light of Elonis, the Eleventh Circuit
held that the indictment was insufficient because it failed to allege Martinez’s mens
rea, or any other fact from which intent could be inferred. Id. at 1295. As a result
the indictment did not meet the Fifth Amendment requirement that the grand jury
find probable cause for each element of a violation of 875(c). Ibid.
Here as in Martinez, an intervening decision of this Court abrogated the
Eleventh Circuit’s precedent making clear that a particular mens rea is required to
state an offense. The indictment here even more deficient than the indictment in
Martinez because it did not even cite 924(a)(2), the statute that criminalizes the
prohibited conduct and supplies the mens rea element.
The government might argue that Marc failed to raise this argument below,
but that is not a basis to uphold this non-offense. De novo review applies because
jurisdictional challenges to indictments are reviewed de novo,United Statesv. Sper26

razza, 804 F.3d 1113, 1119 (11th Cir., 2015); and the Eleventh Circuit even has
established precedent recognizing that the failure to allege a crime is a
jurisdictional defect. United States v. Izurieta, 710 F.3d 1176, 1179 (11th Cir.
2013); see United States v. St. Hubert, 909 F.3d 335, 342-44 (11th Cir. 2018) (reaffirming that precedent).
The government’s position in the Eleventh Circuit failed to recognize that
the charged conduct, knowing firearm possession by a felon, is not a federal
offense under Rehaif. See, United States v. McIntosh, 704 F.3d 894, 902-03 (11th
Cir. 2013). It is “outside the reach” of any criminal statute; “proof of that alleged
conduct, no matter how overwhelming, would have brought [the government] no
closer to showing the crime charged.” United States v. Peter, 310 F.3d 709, 715
(11th Cir. 2002). No completed crime was charged because the indictment did not
cite Section 924(a)(2).

Any position to the contrary is irreconcilable with the

indictment and Rehaif.
Marc’s indictment affirmatively charged a non-offense factually and legally.
This case may be distinguished from cases such as United States v. Cotton, 535
U.S. 625 (2002), where the indictment omitted drug quantity for sentencing
purposes but still charged an underlying drug offense. The indictment here did not
even cite 924(a)(2), and certainly did not track its language in its entirety.
27

In Reed v. Ross, 468 U.S. 1 (1984), this Court held that where a claim is so novel
that its legal basis is “not reasonably available to counsel,” a defendant has cause
for failure to raise the claim and overcome procedural default. A claim is not
“reasonably available” where a decision of the Court overturns a long-standing and
widespread practice to which the Court has not spoken, but which a nearunanimous body of lower court authority has expressly approved.” Id. at 17.
The Eleventh Circuit long held that knowledge of status was not an element.
United States v Jackson, 120 F.3d 1226, 1229 (11th Cir. 1997). The other circuits
agreed. Rehaif, 139 S.Ct. at 2210 n.6 (Alito, J.) (dissenting) (citing cases).
If plain error review applies, Marc satisfies it. There was “error” that was
“clear” or “obvious” in light of Rehaif. United States v. Olano, 507 U.S. 725, 73233 (1993). It would not matter even if error became plain while the case was on
direct appeal.

Henderson v. United States, 568 U.S. 266, 269, 279 (2013).

The right to have the grand jury make the charge on its own judgment is a
“substantial right” which cannot be revoked with or without court amendment.
Stirone, 361 U.S. at 219.

The only way to remedy such a defect in an indictment

is to rewrite it, and only the grand jury may do that. Russell v. United States, 369
U.S. 749, 770 (1962).

If any other body could change the charging part of an

indictment to modify it to what it should be, or what the grand jury would probably
28

have done, the grand jury right would be “frittered away” and almost destroyed.
Russell, 369 U.S. 771; United States v. Lang, 732 F.3d 1246, 1249 (11th Cir. 2013).
There is no way for a court to review a record and then speculate what the grand
jury might have done. The fact is Marc was convicted without being charged with
a crime.
Convicting a defendant of an unindicted crime seriously affects the fairness,
integrity, and public reputation of judicial proceedings, and is “fatal error.”
Stirone, 361 U.S. at 219 (emphasis added).

The indictment does not cite

924(a)(2), nor does it or quote the “knowingly violates” language upon which
Rehaif’s holding was based. Nor can the missing mens rea be inferred from other
allegations in the indictment. None of the conclusory allegations in the indictment
could have alerted Mr. Marc to the fact that the government had to prove knowledge of his felon status.

This issue is rapidly-evolving. Both Gregory Greer and

Michael Gary had oral argument before this Court on April 20, 2021.
Rehaif makes clear that while 922(g)(1) prohibits felons from possessing a
firearm, that prohibition is not criminal. Rather, it becomes criminal only when it
is “knowingly violated,” with Section 924(a)(2) being the operative offense.
Marc asked that the indictment be dismissed because he was indicted for a
nonexistent offense.

For the foregoing reasons his conviction should have been

vacated as a matter of law.

29

A defective indictment is not subject to harmless error. While the Eleventh
Circuit suggests otherwise, the issue is debatable.

United States v. Inzunza, 638

F.3d 1006, 1016-17 (9th Cir. 2011) (A defective indictment is a structural flaw and
thus not subject to harmless error review). That is because the Fifth and Sixth
Amendments not only guarantee charging by a grand jury, but also the right to be
informed of the nature and cause of the accusation. See, eg., United States v.
Radowitz, 507 F.3d 108, 111-12 (3d Cir. 1974) (An indictment fulfills the Sixth
Amendment “apprise” requirement by providing the defendant with notice of the
charges against him to allow him to prepare a defense).
Further Marc relies on this Court’s decisions in Russell v. United States, 369
U.S. at 763, 768 n.15, 771, and Hamling v. United Stat es, 418 U.S. 87, 117-18, 94
S.Ct. 2887 (1974).

Russell held that “[a]n indictment must furnish the defendant

with a sufficient description of the charges against him to enable him to prepare his
defense, to ensure that the defendant is prosecuted on the basis of facts presented
by the grand jury to enable him to plead jeopardy against a later prosecution, and
to inform the court of facts alleged so it can determine the sufficiency of the
Charge.” Russell, 369 U.S. at 763, 768 n.15.

To perform these functions the

indictment must set forth the elements of the offense charged and contain a serious
statement of the facts and circumstances that will in30

form the accused of the specific offense with which he is charged. Hamling,
supra, 418 U.S. at 117-18.
Finally, the issue of whether the plea was knowingly and voluntarily entered
also must be revisited. The Eleventh Circuit seems to suggest that Marc’s plea
agreement allowed the district court to disregard Rule 11 of the Federal Rules of
Criminal Procedure. Rule 11(b)(3) requires that before accepting a plea of guilty,
the district court “must determine that there is a factual basis for the plea.” United
States v. Frye, 402 F.3d 1123, 1128 (11th Cir. 2006).
Rule 11(b)(3)’s requirement is to protect a defendant who mistakenly
believes that his conduct constitutes the criminal defense to which he is pleading
guilty.

McCarthy v. United States, 394 U.S. 459, 467, 90 S.Ct. 1166, 1171

(1969). It is clear from Delson Marc’s plea colloquy that the plea agreement was
null and void under Rule 11(b)(3), where the Court stated at page 54, Change of
Plea Hearing:
THE COURT: All right. There being no exception or objection to the
facts summarized, there having been a stipulated factual basis, I find
the facts which the government is prepared to prove are sufficient to
constitute the crimes of … possession of a firearm and ammunition by
a convicted felon.

31

The Eleventh Circuit has found no violation of substantial rights in almost
every case coming before it raising a Rehaif error, because there was some
record evidence that those defendants had served more than one year in
custody. See, for example United States v. Stokeling, 2020 U.S. App. LEXIS, 183
(11th Cir.2020) (finding that Stokeling’s indictment and Rule 11 colloquy suffered
from Rehaif defects, but there was no violation of substantial rights; and during the
plea colloquy he admitted that he had three prior felonies and that he served twelve
years in prison; United States v. Greer, 2020 U.S. App. LEXIS 412 (11th Cir. 2020)
(finding no substantial rights violation in Rehaif error where the presentence
investigation report established that Greer had accrued five felony convictions and
had served separate sentences of 36 months and 20 months in prison).

No such

facts are present in Delson Marc’s case. And in any event, this Court’s decision
on Greer’s pending Petition will govern the decision in Marc’s case.

Conclusion
Based upon the foregoing arguments and authorities, Petitioner Delson Marc
respectfully prays that this Honorable Court will issue its most gracious writ, and
will find that Delson Marc’s guilty plea should have been vacated because
sentencing laws changed after entry of the plea and prior to the sentencing; and/or
32

that his conviction for possession of a firearm by a convicted felon should be
vacated based upon Rehaif, and/or based upon the outcomes of the pending
Petitions on behalf of

Michael Gary and Gregory Greer; and/or because the

charged 922(g) violation was not a violation of federal criminal law based upon
what was - and was not charged in the indictment. Delson Marc asks this Court to
Grant his Petition, Vacate his convictions, and Remand the cause to the Eleventh
Circuit with specific instructions to revisit, reconsider, and remand to the district
court with appropriate instructions.

May 13, 2021

Very respectfully submitted,

/s/ Sheryl J. Lowenthal

Sheryl J. Lowenthal
CJA Appellate Counsel for Mr. Marc
9130 S Dadeland Blvd. Suite 1511
Miami, Florida 33156-7851
Phone: 305-670-3360
Fax: 305-670-1314
Florida Bar No. 163475

North Florida Office: 221 East Government Street Pensacola FL 32502 Ph: 850-912-6710

33

